NUMBER
In The
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

STEVEN E. HILL, Petitioner,
_

C.V. RIVERA, Respondent.

CERTIFICATE OF SERVICE

I hereby certify that on this 21st day of May, 2021 I deposited
three copies of petitioner’s petition for a writ of certiorari and one copy
of petitioner’s certificate of compliance, one copy of petitioner’s
certificate of service and one copy of petitioner’s letter to the clerk in
the United States First Class Mail for service on:

Solicitor General

Room 5616

United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

Mr. Richard M. Pence, Jr.

USS. Attorney’s Office, Eastern District of Arkansas
P O Box 1229

Little Rock, AR 72203-1229
Dated this 21% day of May, 2021

 

Jerepty . LoWrey

Arkangas Bar No. 2002153
Post Office Box 153
Sheridan, Arkansas 72150
(870) 329-4957

Facsimile No: (479) 222-1459

ATTORNEY FOR PETITIONER
STEVEN E. HILL
